No.

IN THE

Supreme (Houri of the JUmteb States
Jorge Armando Herrera Salguero,

Petitioner,
v.

People of the State of California,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

Cuauhtemoc Ortega
Interim Federal Public Defender
Mark R. Drozdowski*
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Mark_Drozdowski@fd.org
Attorneys for Petitioner
* Counsel of Record

QUESTION PRESENTED
This Court has repeatedly held that to receive a certificate of
appealability (“COA”), a habeas petitioner need only show that “‘jurists of

reason could disagree with the district court’s resolution of his constitutional
claims or that jurists could conclude the issues presented are adequate to
deserve encouragement to proceed further.’” Buck v. Davis, 137 S. Ct. 759,

773 (2017).
At Petitioner’s trial, Cristina Zavala, a babysitter for his five-year old
daughter, testified that Petitioner admitted to her that he sexually assaulted
his daughter but that she did not tell the police because a school teacher she

looked to for advice told her not to, that the police don’t do anything about
such claims. Zavala provided the only evidence that Petitioner had allegedly

admitted to abusing his daughter. Petitioner’s attorney argued in closing
that “[w]hat this trial is about is Cristina Zavala’s credibility.” In her

rebuttal closing argument, the prosecutor improperly vouched for this pivotal

government witness, stating, “I believe that what Cristina Zavala told us is
absolutely the truth.”
Is the Ninth Circuit’s denial of a COA on Salguero’s prosecutorial

misconduct claim contrary to this Court’s jurisprudence?

i

PARTIES AND LIST OF PRIOR PROCEEDINGS
The parties to this proceeding are Petitioner Jorge Armando Herrera

Salguero and Respondent the People of the State of California; Craig Koenig is

the Acting Warden of the Correctional Training Facility in Soledad, California,
where Petitioner is incarcerated pursuant to the judgment he is challenging.
The California Attorney General represents Respondent.
Salguero was convicted in the Riverside County Superior Court in
People v. Jorge Armando Herrera Salguero, case no. SWF120846, Judge

Michael J. Rushton, presiding, in 2014. Judgment was entered against

Salguero on December 12, 2014. Reporter’s transcript of trial, district court
docket 33, lodgment 1, at 900, 908.
The California Court of Appeal affirmed the judgment on appeal in
People v. Salguero, case no. E062563, on January 7, 2016 in an unpublished
opinion. Petitioner’s Appendix attached hereto (“Pet. App.”) 32, 57-59. On

December 19, 2016, Salguero timely filed a pro se habeas corpus petition in
Jorge Armando Herrera Salguero v. Craig Koenig, Warden, C.D. Cal. case no.

EDCV 17-0076-SJO (AFM). Pet. App. 32; district court docket 1. On
September 2, 2017, United States Magistrate Judge Alexander F. MacKinnon

appointed counsel for Petitioner. District court docket 28. On December 21,
2017, the magistrate judge stayed the federal case pending the exhaustion of

state remedies. District court docket 38. On January 29, 2018, Salguero filed

ii

a habeas corpus petition in In re Jorge Armando Herrera Salguero on Habeas
Corpus, Cal. Supreme Court case no. S246807. District court docket 42,
lodgments 6, 7. The court summarily denied the petition on June 27, 2018.

Pet App. 56.
On February 8, 2019, the magistrate judge filed a report recommending

that Salguero’s habeas corpus petition be denied and the action dismissed
with prejudice. Pet. App. 28-55. On April 1, 2019, United States District
Judge S. James Otero accepted the recommendation, denied the petition,
dismissed the action with prejudice, and denied a COA. Pet. App. 24-27.

Judgment was entered against Salguero on April 2, 2019. District court
docket 63.
Petitioner timely filed a notice of appeal on April 26, 2019.

District

court docket 65. He filed a motion for a COA on May 31, 2019 in Jorge
Armando Herrera Salguero v. Craig Koenig, Ninth Circuit case no. 19-55480.

Ninth Circuit docket 2. The court, per Circuit Judges John B. Owens and
Mark J. Bennett, denied the motion on April 17, 2020, and recaptioned the
case Jorge Armando Herrera Salguero v. People of the State of California.
Pet. App. 23.

iii

TABLE OF CONTENTS
PAGE
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

4

I.

Trial

4

II.

State Direct Appeal

8

III.

Habeas Actions

9

REASONS FOR GRANTING THE WRIT

10

I.

COA Standards

10

IL

AEDPA Standards

11

III.

Salguero Meets the Low Threshold for a COA on His
Prosecutorial Misconduct Claim

13

CONCLUSION

21

INDEX TO APPENDIX

22

APPENDIX

23

iv

TABLE OF AUTHORITIES
PAGE(S)
FEDERAL CASES
Arizona v. Fulminante,
499 U.S. 279 (1991)

17, 18

Brumfield v. Cain,
135 S. Ct. 2269 (2015)

13

Buck v. Davis,
137 S. Ct. 759 (2017)

10, 20

Cudjo v. Ayers,
698 F.3d 752 (9th Cir. 2012)

12

Darden v. Wainwright,
477 U.S. 168 (1986)

15

Deck v. Jenkins,
814 F.3d 954 (9th Cir. 2016)

18

Frantz v. Hazey,
533 F.3d 724 (9th Cir. 2008) (en banc)

11

Frost v. Gilbert,
835 F.3d 883 (9th Cir. 2016) (en banc)

10

Harrington v. Richter,
562 U.S. 86 (2011).

11

Johnson v. Sublett,
63 F.3d 926 (9th Cir. 1995)

16

Linderman v. Lackner,
2015 WL 5026061 (C.D. Cal. Aug. 10, 2015)

20

Lockyer v. Andrade,
538 U.S. 63 (2003)

12

Maxwell v. Roe,
628 F.3d 486 (9th Cir. 2010)

13

v

TABLE OF AUTHORITIES

PAGE(S)
Miller-El v. Cockrell,
537 U.S. 322 (2003)

10

Panetti v. Quarterman,
551 U.S. 930 (2007)

12, 13

Parker v. Matthews,
567 U.S. 37 (2012) (per curiam)

14

Smith v. Ryan,
823 F.3d 1270 (9th Cir. 2016)

12

Taylor v. Maddox,
366 F.3d 992 (9th Cir. 2004)

13

United States v. Combs,
379 F.3d 564 (9th Cir. 2004)

17, 18, 19

United States v. Harrison,
585 F.3d 1155 (9th Cir. 2009)

19, 20

United States v. Kerr,
981 F.2d 1050 (9th Cir. 1992)

16, 17, 19

United States v. Maloney,
755 F.3d 1044 (9th Cir. 2014) (en banc)

United States v. Molina-Guevara,
96 F.3d 698 (3rd Cir. 1996)

18

15, 17, 18

United States v. Roberts,
618 F.2d 530 (9th Cir. 1980)

20

United States v. Smith,
962 F.2d 923 (9th Cir. 1992)

...20

United States v. Weatherspoon,
410 F.3d 1142 (9th Cir. 2005)

18

vi

TABLE OF AUTHORITIES
PAGE(S)
United States v. Young,
470 U.S. 1 (1985)

15

Welch v. United States,
136 S. Ct. 1257 (2016)

10

Wiggins v. Smith,
539 U.S. 510 (2003)

12

Woodford v. Garceau,
538 U.S. 202 (2003)

11

STATE CASES
People v. Seumanu,
61 Cal. 4th 1293 (2015)

15

People v. Wende,
25 Cal. 3d 436 (1979)

8

Federal Statutes
28 U.S.C. § 1254(1)

2

28 U.S.C. § 1291

2

28 U.S.C. § 2241

2

28 U.S.C. § 2253

2, 10

28 U.S.C. § 2254

2

28 U.S.C. § 2254(a)

11

28 U.S.C. § 2254(d)

passim
10

Fed. R. App. P. 22(b)

2

U.S. Const.amend. XIV

vii

PETITION FOR A WRIT OF CERTIORARI

TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Jorge Armando Herrera Salguero petitions for a writ of certiorari to
review the judgment of the Ninth Circuit Court of Appeals denying his

request for a COA.

OPINIONS BELOW
The Ninth Circuit’s order denying Salguero’s request for a COA is
unreported. Pet. App.23. The district court’s judgment and its orders

accepting the magistrate judge’s report and recommendation, dismissing the
habeas action against Salguero with prejudice, and denying a COA are
unreported. Pet. App. 24-27.

The opinion by the California Court of Appeal affirming Salguero’s

judgment on appeal is unreported. Pet. App. 57-59. The order by the

California Supreme Court denying Salguero’s habeas corpus petition is
unreported. Pet. App. 56.

JURISDICTION
The Ninth Circuit’s order denying Salguero’s COA motion was filed and
entered on April 17, 2020. Pet. App. 23; Ninth Circuit docket 3. The district

1

court had jurisdiction under 28 U.S.C. §§ 2241 and 2254. The Ninth Circuit
had jurisdiction pursuant to 28 U.S.C. §§ 1291 and 2253. This Court has
jurisdiction under 28 U.S.C. § 1254(1). This petition is timely under Supreme

Court Rule 13.1 and the Court’s order of March 19, 2020 extending the filing

deadline for certiorari petitions by another 60 days because of Covid-19.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Section 1 of the Fourteenth Amendment to the U.S. Constitution
“All persons born or naturalized in the United States, and subject to

the jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall

abridge the privileges or immunities of citizens of the United States; nor shall

any State deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection of

the laws.”

28 U.S.C. § 2253
“(a) In a habeas corpus proceeding or a proceeding under section 2255 before
a district judge, the final order shall be subject to review, on appeal, by the

court of appeals for the circuit in which the proceeding is held.
(b) There shall be no right of appeal from a final order in a proceeding to test

the vaidity of a warrant to remove to another district or place for
commitment or trial a person charged with a criminal offense against the

2

United States, or to test the validity of such person's detention pending

removal proceedings.

(c)(1) Unless a circuit justice or judge issues a certificate of appealability, an
appeal may not be taken to the court of appeals from--

(A) the final order in a habeas corpus proceeding in which the detention
complained of arises out of process issued by a State court; or
(B) the final order in a proceeding under section 2255.

(2) A certificate of appealability may issue under paragraph (1) only if the

applicant has made a substantial showing of the denial of a constitutional
right.
(3) The certificate of appealability under paragraph (1) shall indicate which
specific issue or issues satisfy the showing required by paragraph (2).”

28 U.S.C, § 2254(d)
(1) application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted with

respect to any claim that was adjudicated on the merits in State court
proceedings unless the adjudication of the claim

(2) resulted in a decision that was contrary to, or involved an

unreasonable application of clearly established Federal law, as determined by

the Supreme Court of the United States; or

3

(3) resulted in a decision that was based on an unreasonable

determination of the facts in light of the evidence presented in the State court

proceeding.”

STATEMENT OF THE CASE
1.

Trial
The prosecution presented evidence that Cristina Zavala babysat for

Jane Doe, the daughter of Salguero’s significant other and the child he was

accused of sexually assaulting. RT 106-09.1 At Salguero’s first trial, Zavala

testified that when Doe was five years old, she told Zavala that Salguero

pulled his pants down and “put white stuff [semen] in her private parts.” Doe
also described Salguero’s penis to her. RT 110-12. Zavala testified that
Salguero admitted to her that “he had put his thing in the little girl’s

privates” “but he didn’t know why, because he had never done that before.
Supposedly he had a lot of remorse.” RT 114-15. She testified that Salguero

cried while he spoke to her. RT 114.

At a sidebar, the court noted that “some new evidence has been

produced” by Zavala’s testimony that she had not told to either party before
trial. RT 116, 134. Defense counsel Richard Briones-Colman said that
Salguero “has asserted all along that she is a pathological liar,” noted that

1 “RT” refers to the reporter’s transcript of Salguero’s two trials (the
first ended in a mistrial). See district court docket 33, lodgment 1.

4

her testimony involved a “completely different universe” of facts from what
she had said pre-trial, and argued that the defense could not meaningfully

confront her. RT 135. The court granted a mistrial based on this surprise
testimony of Salguero’s alleged admissions. RT 138, 141.

In his opening statement at the second trial, defense counsel told the
jury that Zavala was at “the center of how the disclosure” of the alleged abuse
came about. ART 260-61.2 He said that Zavala was “an extraordinarily

important player in this.” ART 261. He said that Zavala was “not just a
babysitter” but had “raised the girl from newborn” “and had a tremendous
amount of influence on the alleged victim. And the disclosure that’s alleged
to be in this case is all through her.” Id. Counsel said that Zavala would

testify that she informed a school teacher of the alleged abuse, and that the

teacher, who had a duty to report child abuse, told her to keep quiet about it.
ART 262-63. Counsel said: “I’m hoping that you’ll find that to be absolutely
not credible. It’s almost crazy.” ART 263. Counsel further stated that the

prosecution would present evidence that Salguero sternly disciplined Jane

Doe (they lived together with Doe’s mother and other children), and that Doe
wanted to live with her natural father instead, who had become divorced

2 “ART” refers to the Augmented Reporter’s Transcript of portions of
the second trial. See district court docket 33, lodgment 2.

5

from her mother. ART 265-66. Counsel framed the question in the case as
whether Doe “wanted to stay with her father because she wanted to get away

from this harsh disciplined environment where she was now one of four
children, who, with less attention and less -- perhaps less focus and, in her

eyes, less love -- or whether she didn’t want to go back because Jorge
[Salguero] was raping her. And that’s the question that you need to answer.”
ART 266-67.

The prosecution presented Doe’s testimony and played a video of a

statement she gave recounting the alleged abuse. RT 210-18. Salguero was
her mother’s boyfriend and they lived together when the alleged abuse

occurred. RT 216-18, 253-54, 265-67, 787-88, 793-94, 822-23.

Doe’s mother testified that she never saw Salguero “do anything
sexual” to Doe “anywhere in the house.” RT 379.

Zavala repeated her testimony from the first trial, as described above.
RT 419-51, 454-58; see especially 423-32 (Salguero “was crying like a baby,”

asked for forgiveness, and “was very remorseful”), 449 (she didn’t call the
police because a public school teacher told her not to).
Salguero did not testify. The defense presented a number of witnesses

who testified that Salguero was a good father who was good around children
and did not behave suspiciously. The court took judicial notice that public

6

school teachers are legally mandated to report suspected child abuse or

neglect, and the jury was so informed. RT 755-56.
The prosecutor, Julie Baldwin, began her closing argument by

discussing Zavala’s testimony. She said that “[t]he first time we became

aware that there was anything amiss between (Jane Doe) and her mom’s
boyfriend was when (Jane Doe) was five. And you heard about that from

Cristina Zavala.” RT 758.

In his closing, defense counsel reiterated his theory of the case from his
opening statement. He argued: “What this trial is about is Cristina Zavala’s
credibility. And she is not telling you the truth when she said, ‘I told the
public school teacher and the public school teacher told me, “you know, police

never do anything about that. So don’t bother calling it in. It doesn’t
matter.’”” RT 797. “And if we can’t trust somebody who comes into court who
swears to tell the truth on one point, and it’s an important point, then you

can’t trust them on other points either.” RT 804. Counsel argued that “[t]his
is a case where she says she was raped, and then he penetrated her, but she

has a hymen.” RT 793.3 Counsel asked: “Who would want to believe that a

3 A forensic pediatrician (and prosecution witness) testified that when
she examined Doe, Doe’s hymen was intact, and that the findings of the
examination were “normal.” The doctor could not offer an opinion on whether
Doe had been sexually abused. Pet. App. 31.

7

child would lie about these things? Who would want to believe that people

get bitter enough or crazy enough during divorces, lay low, appear normal,

and poison a child’s mind? ... It is a reasonable inference based on the
facts.” RT 811-12.

In rebuttal, the prosecutor told the jury: “I believe that what Cristina
Zavala told us is absolutely the truth.” Pet. App. 62.
On October 29, 2014, the jury convicted on all counts. Pet. App. 58; RT

854-55. On December 12, 2014, Superior Court Judge Michael J. Rushton

sentenced Salguero “to the upper term of eight years for the lewd act and
consecutive terms of 25 years to life for each of the other two counts [for
unlawful sexual intercourse with a child under age 10], for a total sentence of
eight years plus 50 years to life.” Pet. App. 59; RT 900, 908.

11.

State Direct Appeal
Salguero’s state appellate attorney filed a Wende brief raising no

specific issues.4 Pet. App. 59. The California Court of Appeal affirmed the

judgment on January 7, 2016 in an unpublished decision. Pet. App. 32, 59.

Salguero did not file a petition for review in the California Supreme Court.
Pet. App. 32.

4 People v. Wende, 25 Cal. 3d 436 (1979).

8

111. Habeas Actions
Salguero timely filed a pro se federal habeas petition on December 19,
2016. Id. On September 2, 2017, the court appointed counsel for Salguero,

and on December 21, 2017, the court stayed the federal case pending the
exhaustion of state remedies. Id.', district court dockets 28, 38. On January
29, 2018, Salguero filed a habeas petition in the California Supreme Court.

District court docket 42, lodgments 6-7. The court summarily denied the

petition on June 27, 2018 in an order stating, “The petition for writ of habeas

corpus is denied.” Pet. App. 56. Salguero filed a first amended federal
petition on July 27, 2018. District court docket 45. After the filing of an

answer and a reply, Magistrate Judge Alexander F. MacKinnon
recommended denying relief in a report filed on February 8, 2019. Pet. App.

28-55. On April 1, 2019, District Judge S. James Otero accepted the
magistrate judge’s findings and recommendations, denied the petition,

dismissed the action with prejudice, entered judgment against Salguero, and
denied a COA. Pet. App. 24-27. Salguero timely filed a notice of appeal on

April 26, 2019. District court docket 65. Salguero filed a COA motion in the
Ninth Circuit on May 31, 2019, which the court denied in an order filed and

entered on April 17, 2020. Pet. App. 23; Ninth Circuit dockets 2, 3.

9

REASONS FOR GRANTING THE WRIT

I.

COA Standards
A habeas petitioner has no absolute right to appeal a district court’s

denial of a petition but instead must obtain a COA to pursue an appeal.
Buck, 137 S. Ct. at 773; Miller-El v. Cockrell, 537 U.S. 322, 327 (2003); 28
U.S.C. § 2253(c); Fed. R. App. P. 22(b). Obtaining a COA “‘does not require a
showing that the appeal will succeed.’” Welch v. United States, 136 S. Ct.
1257, 1263 (2016). Indeed, “[t]he COA inquiry ... is not coextensive with a

merits analysis. At the COA stage, the only question is whether the
applicant has shown that ‘jurists of reason could disagree with the district
court’s resolution of his constitutional claims or that jurists could conclude

the issues presented are adequate to deserve encouragement to proceed
further.’” Buck, 137 S. Ct. at 773. “This threshold question should be decided
without ‘full consideration of the factual or legal bases adduced in support of

the claims.’” Id. “The COA inquiry asks only if the District Court’s decision

was debatable.” Miller-El, 537 U.S. at 348; Buck, 137 S. Ct. at 774. This is a
“low” standard. Frost v. Gilbert, 835 F.3d 883, 888 (9th Cir. 2016) (en banc).

The petitioner need only “prove ‘something more than the absence of
frivolity.’” Miller-El, 537 U.S. at 338 (quotation marks omitted).

10

II.

AEDPA Standards
Salguero’s petition is governed by the Antiterrorism and Effective

Death Penalty Act (“AEDPA”). Woodford v. Garceau, 538 U.S. 202, 204

(2003). To obtain relief under AEDPA, a petitioner must show that his
constitutional rights were violated under 28 U.S.C. § 2254(a) and that
§ 2254(d) does not bar relief on any claim adjudicated on the merits in state

court. Frantz v. Hazey, 533 F.3d 724, 735-36 (9th Cir. 2008) (en banc).
Under § 2254(d), a habeas petition challenging a state court judgment:

shall not be granted with respect to any claim that was
adjudicated on the merits in State court proceedings
unless the adjudication of the claim-(l) resulted in a

decision that

was

unreasonable

application

contrary

of,

to,

or

clearly

involved

an

established

Federal law, as determined by the Supreme Court of

the United States; or (2) resulted in a decision that was
based on an unreasonable determination of the facts

in light of the evidence presented in the State court
proceeding.

There is a rebuttable presumption that a state court adjudicated the
merits of a federal claim—triggering the application of § 2254(d)—when it

11

denies the claim in an unreasoned summary order. Harrington v. Richter,

562 U.S. 86, 97-100 (2011).
‘“[C]learly established Federal law’ under § 2254(d)(1) is the governing

legal principle or principles set forth by the Supreme Court at the time the
state court renders its decision.” Lockyer v. Andrade, 538 U.S. 63, 71-72
(2003). “Only Supreme Court holdings clearly establish federal law for the

purposes of § 2254(d)(1), but circuit precedent is persuasive authority in
assessing what law is ‘clearly established’ and whether the state court
applied the law reasonably.” Smith v. Ryan, 823 F.3d 1270, 1279 (9th Cir.
2016).

A “‘state court decision is “contrary to” clearly established Supreme
Court precedent if the state court applies a rule that contradicts the

governing law set forth in Supreme Court cases or if the state court confronts
a set of facts materially indistinguishable from those at issue in a decision of

the Supreme Court and, nevertheless, arrives at a result different from its

precedent.’” Cudjo v. Ayers, 698 F.3d 752, 761 (9th Cir. 2012) (original
emphasis).

A state court unreasonably applies federal law when it identifies the

correct governing legal principle but unreasonably applies it to the facts of
the case. Id. “That the standard is stated in general terms does not mean
the application was reasonable. AEDPA does not ‘require state and federal

12

courts to wait for some nearly identical factual pattern before a legal rule

must be applied.’” Panetti v. Quarterman, 551 U.S. 930, 953 (2007); Wiggins

v. Smith, 539 U.S. 510, 520 (2003) (“a federal court may grant relief when a
state court has misapplied a ‘governing legal principle’ to ‘a set of facts

different from those of the case in which the principle was announced.’”).
A state court unreasonably determines the facts under § 2254(d)(2)
when its finding of fact is unsupported or contradicted by the record or when

the fact-finding process itself was defective. Brumfield v. Cain, 135 S. Ct.
2269, 2278-82 (2015); Taylor v. Maddox, 366 F.3d 992, 999-1001 (9th Cir.

2004).

When a federal habeas court concludes that the state court decision is

contrary to or an unreasonable application of federal law, or is based on an

unreasonable factual determination (§ 2254(d)), it reviews the claim de novo
in assessing whether the petitioner’s constitutional rights were violated.

Panetti, 551 U.S. at 953, Maxwell v. Roe, 628 F.3d 486, 506 (9th Cir. 2010).

III.

Salguero Meets the Low Threshold for a COA on His
Prosecutorial Misconduct Claim
Ground Two of Salguero’s first amended federal habeas petition alleges

that the prosecutor committed prejudicial misconduct by vouching for
Zavala’s testimony when she said in the rebuttal phase of her closing

argument, “I believe that what Cristina Zavala told us is absolutely the

13

truth.” District court docket 45 (petition) at 5; district court docket 45-1

(memorandum in support of petition) at 6-7.
Salguero presented this claim to the California Supreme Court in pages

13 to 15 of his exhaustion petition. District court docket 42, lodgment 6. The

California Supreme Court denied the petition in an order stating: “The
petition for writ of habeas corpus is denied.” Pet. App. 56. In district court,

Respondent did not try to rebut the presumption that the California Supreme
Court’s summary denial of Salguero’s claims is a denial on the merits.

Indeed, Respondent admitted that the state court denial is an adjudication on

the merits and did not argue that any of Salguero’s claims were procedurally
defaulted under state law. District court docket 52 (Answer) at 2; district

court docket 52-1 (memorandum in support of Answer) at 3. The magistrate

judge ruled that the state court denial is an adjudication on the merits. Pet.
App. 34. As shown below, the state court’s denial of relief is contrary to and
an unreasonable application of clearly established federal law, and is also

based on an unreasonable determination of the facts. 28 U.S.C. § 2254(d)(1),

(2). Therefore, § 2254(d) does not bar relief and Salguero’s claim is reviewed

de novo. See supra at 11-13.

It is clearly established federal law that a “prosecutor’s improper

comments” violate the federal Constitution when they “so infected the
trial with unfairness as to make the resulting conviction a denial of due

14

process.” Parker v. Matthews, 567 U.S. 37, 45 (2012) (per curiam)

(quotation marks omitted); see also Darden v. Wainwright, 477 U.S. 168,
181 (1986).
Prosecutors commit misconduct when they “vouch” for a witness by
expressing their personal belief or opinion as the truth of the witness’s
testimony. United States v. Young, 470 U.S. 1, 8, 17-19 (1985); United States

v. Molina-Guevara, 96 F.3d 698, 704 (3rd Cir. 1996) (“A prosecutor may not
properly vouch for the credibility of a government witness.”); People v.
Seumanu, 61 Cal. 4th 1293, 1329 (2015) (“impermissible ‘vouching’ may occur

where the prosecutor places the prestige of the government behind a witness

through personal assurances of the witness’s veracity”). “[T]he prosecutor’s
opinion carries with it the imprimatur of the Government and may induce

the jury to trust the Government’s judgment rather than its own view of the

evidence.” Young, 470 U.S. at 18-19.
As noted above, Salguero’s prosecutor told his jury in her closing

argument: “I believe that what Cristina Zavala told us is absolutely the
truth.” Pet. App. 62. The prosecutor thus improperly vouched for the

credibility of the key prosecution witness in a trial that hinged on that
witness’s credibility. Young, 470 U.S. at 8 (it is “‘unprofessional conduct for

the prosecutor to express his or her personal belief or opinion as to the truth
or falsity of any testimony or evidence of the guilt of the defendant’”); id. at 5

15

(prosecutor commits improper vouching by saying in closing: ‘“You can look

at the evidence and you can remember the testimony, you remember what

the witnesses said and what respondent admitted they said. I think it’s a

fraud.”). Worse, the prosecutor vouched for Zavala in her rebuttal argument,
getting in the last word before the jury began deliberations.
The Report and Recommendation states that the prosecutor’s comment

was “ill-advised” and that “[c]ase law supports the conclusion that it
constituted improper vouching” but concludes that even assuming it was, the
prosecutor’s statement “did not render Petitioner’s trial fundamentally

unfair.” Pet. App. 42-43. Cases cited by the Report show this is improper

vouching. Pet. App. 42. In Johnson v. Sublett, 63 F.3d 926, 930 (9th Cir.
1995), the government conceded that the prosecutor committed misconduct

when he said in closing, “Drake is a credible witness. He was telling you the
truth.” In United States v. Kerr, 981 F.2d 1050, 1053 (9th Cir. 1992), the
court reversed a conviction where the prosecutor said, “‘I think he (Al Butler)

was candid. I think he was honest.’” Salguero’s prosecutor one-upped these
statements by telling his jury that “what Cristina Zavala told us is absolutely

the truth” Pet. App. 62 (emphasis added).

The Report states that “the prosecutor may not have improperly
vouched for Zavala’s veracity but rather was properly responding to defense
counsel’s attack on Zavala.” Pet. App. 41. But “[a]ny attacks on the

16

credibility of government witnesses were legitimate tools of advocacy and did
not, standing alone, justify such a response.” Kerr, 981 F.2d at 1053.

Defense counsel’s argument that Zavala was not credible was “vigorous

advocacy entirely appropriate for a case that turned on the jury’s assessment
of the credibility of the witnesses” and does not amount to “invited error”

excusing the prosecutor’s misconduct. Molina-Guevara, 96 F.3d at 705; see

also United States v. Combs, 379 F.3d 564, 574 (9th Cir. 2004) (rejecting
argument that “the vouching was invited by defense counsel’s closing

argument, and therefore excusable”; “[i]t is well settled that ‘the prosecution
is not allowed to use improper tactics even in response to similar tactics by

the defense’”).
Salguero was prejudiced by the prosecutor’s improper vouching.

Zavala’s testimony was central to the prosecution’s case, and she alone
provided evidence that Salguero had admitted abusing Doe. Arizona v.

Fulminante, 499 U.S. 279, 296 (1991) (a “defendant’s own confession is

probably the most probative and damaging evidence that can be admitted
against him”). Zavala’s credibility was hotly contested, and the defense

persuasively argued that she had lied about the teacher’s alleged statement
not to report the purported abuse and therefore could not be trusted on other

matters, and that she had persuaded Doe to lie as well.

17

Salguero was prejudiced by the vouching because “there is a reasonable

probability that it rendered the trial fundamentally unfair,” and no

reasonable court could conclude otherwise. Deck v. Jenkins, 814 F.3d 954,
985 (9th Cir. 2016). The prejudice was compounded by the fact that the

vouching occurred in rebuttal, just before the jury began deliberations.

United States v. Maloney, 755 F.3d 1044, 1046 & n.2 (9th Cir. 2014) (en
banc); see also United States v. Weatherspoon, 410 F.3d 1142, 1152 (9th Cir.

2005) (granting relief on vouching claim in “a comparatively close case that
boiled down to a battle over credibility”); Combs, 379 F.3d at 576 (reversing
conviction and stating that “‘vouching is especially problematic in cases

where the credibility of the witnesses is crucial’”); Molina-Guevara, 96 F.3d at
705 (finding prejudice where the defense advanced plausible theories as to
why prosecution witnesses might have misrepresented the facts).
Despite this record, the magistrate judge concluded that “Zavala’s

testimony was not critical to Petitioner’s guilt on any of the charged offenses,”

and therefore “[e]ven assuming that the prosecutor’s argument constituted
improper vouching, ... it did not deprive Petitioner of a fair trial.” Pet. App.

42. But Zavala was the only witness who testified that Salguero had
admitted abusing Doe. See Fulminante, 499 U.S. at 296.

The Report emphasizes the “the trial court instructed the jurors that

‘you alone must judge the credibility or believability of the witnesses,’ and set

18

forth the factors the jurors should consider in assessing a witness’s

credibility.” Pet. App. 42-43. But these standard instructions “did not

specifically address the improper vouching” or cure the damage from it.
Combs, 379 F.3d at 575. “The trial judge gave only general advice to the jury

that they, alone, were to determine the witnesses’ credibility. ... ‘[I]t is very
doubtful that the generalized observations of the court really conveyed a
sufficient sense of judicial disapproval” to dispel the harm from the
prosecutor’s statement. Kerr, 981 F.2d at 1053. “A trial judge should be alert

to deviations from proper argument and take prompt corrective action as

appropriate,” even when counsel does not object. Id. at 1054. That didn’t

happen here, and the standard instructions did not alleviate the harm from

the prosecutor’s vouching of a key government witness. The state court could
not reasonably conclude that “the standard instructions together with the
weight of the evidence cured the damage from the improper vouching,”

Combs, 379 F.3d at 575, and therefore 28 U.S.C. § 2254(d) does not bar relief.

The Report cites two cases in support of its conclusion that any error
was harmless, but both involved much stronger evidence than present here.

Pet. App. 43-44. In United States v. Harrison, 585 F.3d 1155, 1158-1159 (9th

Cir. 2009), the defendant testified in his own defense and was found guilty of
two counts of assaulting a federal officer. “[T]he government presented

physical evidence of Harrison’s guilt, including an injury to one of his

19

knuckles,” and law enforcement officers testified that Harrison “used
profanity and struggled while being arrested” and had been extremely
intoxicated. Id. at 1159. In Linderman v. Lackner, 2015 WL 5026061, at *3,

23 (C.D. Cal. Aug. 10, 2015), “the prosecution presented nine different
complaining witnesses who testified that Petitioner engaged in similar sexual

misconduct with women in his custody [as a sheriff s deputy] on twelve
different occasions.” The petitioner therefore could not show prejudice to

vacate his convictions on 15 counts of sex crimes and related bribes. Id. at
*3.

By contrast, the prejudice is apparent in Salguero’s case, a credibility

battle where the prosecutor vouched for the sole witness claiming that
Salguero had admitted abusing Doe.

See cases cited supra at 17-18; see also

United States v. Smith, 962 F.2d 923, 933-36 (9th Cir. 1992); United States v.
Roberts, 618 F.2d 530, 536-37 (9th Cir. 1980). At a minimum, the district
court’s denial of the vouching claim is reasonably debatable, and therefore a
t
COA should issue. Buck, 137 S. Ct. at 774.

20

CONCLUSION
For the foregoing reasons, the Court should grant Salguero’s petition,

reverse the judgment of the Ninth Circuit, and grant a COA on Salguero’s
prosecutorial misconduct claim.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender

DATED: July 16, 2020
MARK R. DROZIXJWSKI*
Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

21

